CERTIFICATE OF COMPLIANCE

Jeffrey Campbell
Petitioner,
v.
State of Nebraska, Sylvia Betta Cole, Department
of Health and Human Services Children and Family
Services, Jon Herdman, Melissa Smith
Reggie Ryder, Lisa Gonzalos
Respondent(s).
As required by the Supreme Court Rule 33.1(h). I clarify that the petition for a
writ of certiorari contains 6,849 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1 (d)
In preparation of this document, the below listed WRIT of CERTIORARI rules
were followed: CERTIORARI
1. As per requested by the clerk of the Supreme Court, the writ is put together
with the corners stapled and Filed within the 150-day deadline.
2.

The Writ of Certiorari does not show any emotion, Quick and
straightforward, repeated or argumentation only facts and evidence of the
events that occurred due to the errors in the family courts.

3.

The Writ of Certiorari consist of 40 pages and other documents are court
proceedings, citations, and exhibits.

4. The Writ of Certiorari consists of evidence of court proceedings that only
pertain to the writ of certiorari as requested by the clerk of the Supreme
Court.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

r P\Q

20 %\

Signature:

24

■

